■’

»

USCA11 Case: 21-11237

Date Filed: 04/27/2021

Page: 1 of 4

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 2I-11237-H
IN RE: DONALD J. MACK,
Petitioner.

Application for Leave to File a Second or Successive
Habeas Corpus Petition, 28 U.S.C. § 2244(b)

Before: JORDAN, LUCK, and LAGOA, Circuit Judges.
BY THE PANEL:
Pursuant to 28 U.S.C. § 2244(b)(3)(A), Donald J. Mack has filed an application seeking an
order authorizing the district court to consider a second or successive petition for a writ of habeas
corpus. Such authorization may be granted only if:
(A) the applicant shows that the claim relies on a new rule of constitutional
law, made retroactive to cases on collateral review by the Supreme Court, that was
previously unavailable; or
(B)(i) the factual predicate for the claim could not have been discovered
previously through the exercise of due diligence; and
(ii) the facts underlying the claim, if proven and viewed in light of the
evidence as a whole, would be sufficient to establish by clear and convincing
evidence that, but for constitutional error, no reasonable factfinder would have
found the applicant guilty of the underlying offense.
28 U.S.C. § 2244(b)(2). “The court of appeals may authorize the filing of a second or successive
application only if it determines that the application makes a prima facie showing that the

USCA11 Case: 21-11237

Date Filed: 04/27/2021

Page: 2 of 4

application satisfies therequirements of this subsection.” Id. § 2244(b)(3)(C); see also Jordan v.
Sec’y, Dep’t ofCorr., 485 F.3d 1351, 1357-58 (11th Cir. 2007) (explaining that this Court’s
determination that an applicant has made a prima facie showing that the statutory criteria have
been met is simply a threshold determination).
Mack is a Florida prisoner serving a total 30-year sentence for conducting an enterprise
through a pattern of racketeering (“RICO”) and 3 counts of sale or delivery of controlled
substances. He filed his original 28 U.S.C. § 2254 petition for a writ of habeas corpus in 2016,
which was denied.
In his application, Mack indicates that he would like to raise one claim. He alleges that,
under Riggins v. Nevada, 504 U.S. 127,139 (1992), the state trial court erred in allowing him to
be tried even though he was not competent to stand trial. He argues that, during post-conviction
proceedings in Florida, the state court incorrectly found that he was competent to stand trial, but
was temporarily incompetent to proceed with sentencing, even though multiple mental health
experts opined that he was incompetent for both. He also argues that he was found incompetent
to stand trial six months earlier in a different case before a Broward County court. He asserts that
the state court’s decision to ignore the Broward court’s determination that he was not competent
was an unreasonable application of clearly established law as determined by the Supreme Court
and deprived him of his right to a fair trial. Mack argues that, according to Ford v. Wainwright,
All U.S. 399,424 (1986), due process requires that he have an opportunity to be heard, which was
violated by die state post-conviction court because it determined that he was competent based
solely on examining court files and the evidence used to convict him.
Mack indicates that he would like us to grant his application to file a second petition for
2

USCA11 Case: 21-11237

Date Filed: 04/27/2021

Page: 3 of 4

habeas corpus~to-a1low the district court to review the state-courts determination of competency nunc pro tunc. He states that he did not bring this up in his initial petition for habeas corpus
because he was proceeding pro se. He asserts that, in the initial petition, he had mistakenly stated
his claim as ineffective assistance of counsel for not discovering the Broward County
incompetency determination, rather than a claim of ineffective assistance of counsel for not
objecting to the district court’s determination, despite medical evidence to the contrary, that he
was competent. He argues that, under Martinez v. Ryan, 566 U.S. 1 (2012), his procedural default
should be excused to allow this issue to be addressed on the merits in his second habeas petition.
In his application, Mack indicates that his proposed claim does not rely on either a new rule of
constitutional law or on newly discovered evidence.
Here, given Mack’s express concession that his proposed claim does not rely on either a
new rule of constitutional law or newly discovered evidence, it cannot meet the statutory criteria
in § 2244(b)(2). See 28 U.S.C. § 2244(b)(2)(A), (B). Inasmuch as he relief on the Supreme
Court cases that he cited as new rules of constitutional law, his application still fails because none
of the cases were newly decided since his initial habeas petition in 2016.1 Additionally, he does
not allege that his lack of competency to stand trial was based on a newly discovered “factual
predicate,” but instead, relies on statements from mental health experts made during his state
post-conviction proceedings and the determination of the Broward county court that he was
incompetent, both of which were available prior to the filing of his initial § 2254 petition. See id.
§ 2244(b)(2)(B). Finally, his argument that his application should be granted because of Martinez

1 In addition to the three Supreme Court cases identified above, Mack cites a number of
other Supreme Court cases, as well as other circuit authority and Florida law, in discussing the
legal framework for his claim. However, all of the Supreme Court cases that he cites predate his
original § 2254 petition, and cases from courts other than the Supreme Court do not satisfy the
statutory criteria. See 28 U.S.C. § 2244(b)(2)(A).
3

USCA11 Case: 21-11237

Date Filed: 04/27/2021

Page: 4 of 4

i

v~ Ryan fails because, not only does that case predate his initial § 2254 petition, and therefore is
not new, we have held that Martinez did not announce a new rule of constitutional law that would
permit the filing of a successive habeas petition. See id.; Chavez v. Sec ’y, Fla. Dep’t of Corr.,
742 F.3d 940,946 (11th Cir. 2014).
Accordingly, because Mack has failed to make a prima facie showing of the existence of
either of the grounds set forth in § 2244(b)(2), his application for leave to file a second or
successive petition is hereby DENIED.

4

.j

Additional material
from this filing is
available in the
Clerk's Office.

